No. 20-843

 

 

INTHE
Supreme Court of the United States

NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC., et al.,
Petitioners,

Vv.

KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE
POLICE, et al.,

Respondents.

On Writ Of Certiorari To The
United States Court Of Appeals
For The Second Circuit

BRIEF OF AMICUS CURIAE
MADISON SOCIETY FOUNDATION, INC.
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,566 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 20, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
